TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                 The Internal Revenue Service Deployed Two
                  of Its Most Important Modernized Systems
                      With Known Security Vulnerabilities



                                      September 24, 2008

                              Reference Number: 2008-20-163




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                      DEPARTMENT OF THE TREASURY
                                                          WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                    September 24, 2008


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION
                CHIEF INFORMATION OFFICER

 FROM:                             Michael R. Phillips
                                   Deputy Inspector General for Audit

 SUBJECT:                          Final Audit Report – The Internal Revenue Service Deployed Two of
                                   Its Most Important Modernized Systems With Known Security
                                   Vulnerabilities (Audit # 200720031)

 This report presents the results of our review to determine whether appropriate security controls
 have been implemented in the Customer Account Data Engine (CADE) and the Account
 Management Services (AMS) systems. This review was part of the Information Systems
 Programs business unit’s statutory requirements to annually review the adequacy and security of
 Internal Revenue Service (IRS) information technology.

 Impact on the Taxpayer
 The CADE will provide the foundation for managing all taxpayer accounts and will replace
 existing tax processing systems. When we started our review, the AMS was being designed to
 interface with the CADE. The AMS will provide faster and improved access by employees to
 taxpayer account data. Security weaknesses in controls over sensitive data protection, system
 access, monitoring of system access, and disaster recovery have continued to exist even though
 key phases of the CADE and the AMS have been deployed. As a result, the IRS is jeopardizing
 the confidentiality, integrity, and availability of an increasing volume of tax information for
 millions of taxpayers as application releases1 are put into operation.




 1
     A release is a specific edition of software.
                                   The Internal Revenue Service Deployed
                                Two of Its Most Important Modernized Systems
                                     With Known Security Vulnerabilities



Synopsis
The IRS has established appropriate system development policies and procedures that require
security and privacy safeguards to be planned for and designed in the early phases of a system’s
development life. To ensure that projects progress satisfactorily toward implementation of all
security and privacy requirements, the IRS implemented various evaluations that developmental
projects must undergo prior to exiting the different milestones.2 In addition, the IRS annually
updates the security and privacy control requirements that all new and existing information
systems must address to comply with current Federal Government-wide guidance. For new
systems such as the CADE and the AMS, the goals of these requirements and evaluations are to
ensure that 1) security has been considered and built into systems, and 2) no system is deployed
with significant security vulnerabilities.
Despite these requirements, our review of available test documents provided by the IRS showed
that both the CADE and the AMS were deployed with known security vulnerabilities relating to
the protection of sensitive data, system access, monitoring of system access, and disaster
recovery. These vulnerabilities increase the risks that 1) an unscrupulous person, with little
chance of detection, could gain unauthorized access to the vast amount of taxpayer information
the IRS processes, and 2) the systems could not be recovered effectively and efficiently during
an emergency.
We believe that the IRS’ processes for ensuring that security controls are implemented before
systems are deployed failed because key organizations did not consider the known security
vulnerabilities to be significant,3 which affected vulnerability resolution and system deployment
decisions. Specifically, the CADE and AMS project offices did not prevent and resolve known
security vulnerabilities before deployment of the systems. The Customer Service Executive
Steering Committee,4 which has final milestone exit approval, 1) did not provide sufficient
oversight to ensure that security controls were implemented, and 2) signed off unconditionally on
CADE milestones despite the existence of weaknesses repeatedly reported to the Committee.
Finally, the Cybersecurity organization recommended–and the system owners accepted–the risks


2
  Milestones provide for “go/no-go” decision points in a project and are sometimes associated with funding approval
to proceed.
3
  We believe these security vulnerabilities to be significant because they affect the systems’ abilities to 1) restrict
access to only those individuals with a business need, 2) monitor activities for questionable transactions, 3) protect
data from unauthorized disclosure, and 4) ensure continued operation of the systems. We also believe that the
significance of these security vulnerabilities is heightened because the CADE and the AMS are critical modernized
systems that will affect the future success of the IRS’ computing environment. In addition, the National Institute of
Standards and Technology specifies a minimum baseline of security controls that all Federal Government systems
must address to ensure compliance with Federal security standards.
4
  The charter for this Committee shows that its primary objective is to ensure that project objectives are met, risks
are managed appropriately, and the expenditure of enterprise resources is fiscally sound.
                                                                                                                     2
                                 The Internal Revenue Service Deployed
                              Two of Its Most Important Modernized Systems
                                   With Known Security Vulnerabilities



associated with these vulnerabilities by accrediting5 the systems. We disagree with the system
owners’ acceptance of what we consider excessive risks for these security vulnerabilities,
particularly the inabilities to successfully recover the systems and their data in the event of a
disaster and to detect malicious security events and unauthorized accesses to taxpayer data.
Since 1997, the IRS has designated computer security as a material weakness.6 In addition, the
IRS continues to struggle with addressing security vulnerabilities on its modernized systems.
We identified some of these same vulnerabilities in prior audit reports on the CADE and other
modernization projects. The IRS agreed with most of our findings and responded that it would
ensure that security control requirements were planned for early in the Enterprise Life Cycle7
process, and it was committed to addressing its deficiencies in modernized systems. Until
security control vulnerabilities are corrected, the IRS is jeopardizing the confidentiality,
integrity, and availability of the massive volume of taxpayer data processed and stored by the
CADE and the AMS.

Recommendations
We recommended that the Director, Business Modernization Office, and the Director, Customer
Service, as the Co-Chairs of the Customer Service Executive Steering Committee, consider all
security vulnerabilities–including those associated with general support systems–that affect the
overall security of the CADE and the AMS before approving unconditional milestone exits. The
CADE and AMS Project Managers should provide more emphasis on preventing and resolving
security vulnerabilities identified during Enterprise Life Cycle processes.
The Wage and Investment Division Directors of the CADE and the AMS, in their roles as system
owners, should approve interim authorities to operate when significant security control
weaknesses exist in system environments. These interim authorities to operate should contain
specific terms and conditions in accordance with IRS policy. The Associate Chief Information
Officer, Cybersecurity, should 1) recommend interim authorities to operate when significant


5
  Accreditation is the official management decision given by the owner of an information system to authorize the
operation of the system and to explicitly accept the risks.
6
  The Federal Managers’ Financial Integrity Act of 1982 (31 U.S.C. §§ 1105, 1113, 3512 (2000)) requires that each
Federal Government agency conduct annual evaluations of its systems of internal accounting and administrative
control and submit an annual statement on the status of the agency’s system of management controls. As part of the
evaluations, agency managers identify control areas that can be considered material weaknesses. The Department of
the Treasury has defined a material weakness as, “shortcomings in operations or systems which, among other things,
severely impair or threaten the organization’s ability to accomplish its mission or to prepare timely, accurate
financial statements or reports.” Material weaknesses are reported outside the agency and thus receive additional
oversight.
7
  A structured business systems development method that requires the preparation of specific work products during
different phases of the development process.
                                                                                                                3
                             The Internal Revenue Service Deployed
                          Two of Its Most Important Modernized Systems
                               With Known Security Vulnerabilities



security vulnerabilities exist in system environments, and 2) continue efforts to improve the
accuracy and completeness of risk information in the security assessment reports by listing the
general support system controls that are not yet implemented in the system environment and
documenting concurrence by appropriate offices when reporting that vulnerabilities identified
during milestone reviews have been corrected.

Response
The IRS agreed with our recommendations. It will continue to follow the governance process
documented in the Customer Service Executive Steering Committee charter and consider all
security vulnerabilities to ensure that best practices are in place for the successful delivery of
project security and functionality. The IRS will continue to follow the existing Enterprise Life
Cycle processes for identifying, confirming, and resolving security vulnerabilities at the
requirements, design, development, and testing life cycle stages, with an increased emphasis in
both preventing and resolving security vulnerabilities identified during the Enterprise Life Cycle
processes. It will also strengthen its process for capturing and documenting all Executive
Steering Committee meeting minutes.
The IRS will continue to follow existing policy to issue interim authorities to operate with
appropriate timelines when significant control weaknesses exist in system environments. The
Cybersecurity organization has modified the certification and accreditation process to include
documented concurrence by the Information Technology Security Architecture and Engineering
Office and/or the Office of Privacy, Information Protection, and Data Security when reporting in
security assessment reports that vulnerabilities identified during milestone reviews have been
corrected. Management’s complete response to the draft report is included as Appendix IV.

Office of Audit Comment
Although the IRS agreed with all of our recommendations, the related corrective actions for the
first four recommendations are focused on continuing to follow existing processes or
strengthening current processes. As stated in the report, we believe that the existing security
vulnerabilities were not caused by process deficiencies. Instead, IRS offices did not carry out
their responsibilities for ensuring that security weaknesses were corrected before deployment.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs), at
(202) 622-8510.




                                                                                                  4
                                       The Internal Revenue Service Deployed
                                    Two of Its Most Important Modernized Systems
                                         With Known Security Vulnerabilities




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          Internal Revenue Service Organizations and Oversight Groups
          Did Not Consider Known Security Vulnerabilities to Be
          Significant Enough to Either Resolve the Vulnerabilities or
          Deploy the Systems With Conditional Restrictions......................................Page 4
                    Recommendation 1:........................................................Page 13

                    Recommendations 2 through 5:.........................................Page 14


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 16
          Appendix II – Major Contributors to This Report ........................................Page 17
          Appendix III – Report Distribution List .......................................................Page 18
          Appendix IV – Management’s Response to the Draft Report ......................Page 19
          The Internal Revenue Service Deployed
       Two of Its Most Important Modernized Systems
            With Known Security Vulnerabilities




                Abbreviations

AMS      Account Management Services
CADE     Customer Account Data Engine
IRS      Internal Revenue Service
NIST     National Institute of Standards and Technology
PII      Personally identifiable information
                                 The Internal Revenue Service Deployed
                              Two of Its Most Important Modernized Systems
                                   With Known Security Vulnerabilities




                                            Background

The Internal Revenue Service (IRS) stores sensitive financial and personal information for more
than 130 million individual taxpayers who file annual Federal income tax returns. Each tax
return contains personally identifiable information (PII), such as the filer’s name, address, and
Social Security Number. Because of the volume of data it maintains, the IRS is an attractive
target for criminals intent on committing identity theft by stealing and using someone else’s
identity for their own financial gain. To address public concern about the proper storage of
taxpayer data, the IRS is subject to certain security restrictions and requirements.
Like all Federal Government agencies, the IRS should protect its computer systems by
implementing appropriate security controls to ensure the confidentiality, integrity, and
availability of sensitive data, as recommended in National Institute of Standards and
Technology (NIST)1 Special Publication 800-53.2 NIST Special Publication 800-53 specifies the
minimum baseline of security controls that all Federal Government information systems must
address, based on each system’s security categorization level of high, moderate, or low. These
security controls include system access, audit logging, and contingency planning.
In addition, the IRS is specifically required by Federal law to keep taxpayer data confidential and
to prevent unauthorized disclosure or browsing of taxpayer records. Section 6103 of the Internal
Revenue Code3 prohibits the disclosure of tax returns and tax return information and requires that
the storage of such information be secure and the access restricted to only those persons whose
duties and responsibilities require access. The Taxpayer Browsing Protection Act of 19974 also
provides criminal penalties and civil remedies to help ensure that tax returns and tax return
information remain confidential. These requirements apply to all IRS computer systems that
maintain sensitive data. For the IRS, two of its most important modernized systems are the
Customer Account Data Engine (CADE) and the Account Management Services (AMS).
The CADE will provide the foundation for managing taxpayer accounts to achieve the IRS
modernization vision. It consists of databases and related applications that will replace the IRS’
existing Master File5 processing system, which is the current primary repository of taxpayer


1
  The NIST, under the Department of Commerce, is responsible for developing standards and guidelines, including
minimum requirements, for providing adequate information security for all Federal Government agency operations
and assets.
2
  Recommended Security Controls for Federal Information Systems, Revision 1, published December 2006.
3
  26 U.S.C. Section (§) 6103.
4
  26 U.S.C.A. §§ 7213, 7213A, 7431 (West 2006).
5
  The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
                                                                                                          Page 1
                                  The Internal Revenue Service Deployed
                               Two of Its Most Important Modernized Systems
                                    With Known Security Vulnerabilities



information. Initiated in September 1999, the CADE project had cost more than $490 million as
of June 2007 and is scheduled to cost more than $1 billion to develop, operate, and maintain
through Calendar Year 2012. The CADE is being incrementally developed over multiple
releases6 and will deploy two releases per year–a midyear release to cover new functionalities
and a year-end release to cover tax law changes and maintenance.
In July 2004, the first release of the CADE began processing the simplest Income Tax Returns
for Single and Joint Filers With No Dependents (Form 1040EZ). The second and third releases
of the CADE added increased functionality, and future releases are scheduled to provide
additional functionalities so that the CADE can eventually house the account information of
more than 200 million individual and business taxpayers. From January 1 to April 22, 2008, the
CADE posted 28.1 million tax returns (19.8 percent of the total 141.8 million filed) and issued
26.8 million refunds (28.8 percent of the total 93.2 million issued) totaling more than
$41.7 billion (18.3 percent of the total $228.2 billion refunded). These results significantly
surpass the 11.2 million returns posted by the CADE for all of Calendar Year 2007. In addition,
the CADE was able to support timely issuance of payments to millions of taxpayers mandated by
the Economic Stimulus Act of 20087 beginning after the height of the filing season8 and with
limited lead time for preparation.
The IRS is also developing the AMS system. When we started our review, the AMS was being
designed to interface with the CADE, much like the Integrated Data Retrieval System9 currently
does with the Master File. During our review, the scope of the AMS was changed. The AMS
will provide faster and improved access by employees to taxpayer account data, which will
minimize taxpayer interaction and provide more timely responses to and resolution of taxpayer
inquiries. Initiated in August 2006, the AMS project is scheduled to cost more than $700 million
to develop, operate, and maintain through Calendar Year 2024. The first release of the AMS,
deployed in October 2007, was limited to achieving address changes in the CADE environment.
As of January 2008, 1,000 of 120,000 address change requests could be completed in the CADE
environment in real time, while the others were changed in the Master File.
This review was performed at the office of the Chief Information Officer in
New Carrollton, Maryland, during the period September 2007 through April 2008. We
conducted this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for our


6
  A release is a specific edition of software.
7
  Pub. L. No. 110-185, 122 Stat. 613.
8
  The period from January through mid-April when most individual income tax returns are filed.
9
  IRS computer system capable of retrieving or updating stored information. It works in conjunction with a
taxpayer’s account records.
                                                                                                             Page 2
                             The Internal Revenue Service Deployed
                          Two of Its Most Important Modernized Systems
                               With Known Security Vulnerabilities



finding and conclusions based on our audit objective. Detailed information on our audit
objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




                                                                                         Page 3
                                  The Internal Revenue Service Deployed
                               Two of Its Most Important Modernized Systems
                                    With Known Security Vulnerabilities




                                      Results of Review

Internal Revenue Service Organizations and Oversight Groups Did
Not Consider Known Security Vulnerabilities to Be Significant Enough
to Either Resolve the Vulnerabilities or Deploy the Systems With
Conditional Restrictions
The IRS has established appropriate system development policies and procedures that require
security and privacy safeguards to be planned for and designed in the early phases of a system’s
development life cycle, called the Enterprise Life Cycle10 at the IRS. To ensure that projects
progress satisfactorily toward implementation of all security and privacy requirements, the IRS
implemented various evaluations that developmental projects must undergo prior to exiting the
different milestones11 of the Enterprise Life Cycle. These evaluations include milestone reviews
performed by the Office of Privacy, Information Protection, and Data Security (the Office of
Privacy), the Information Technology Security Architecture and Engineering Office (the
Security Engineering Office), and the Cybersecurity organization. In addition, the IRS annually
updates the security and privacy control requirements that all new and existing information
systems must address to comply with current NIST guidance. For new systems, the goals of
these requirements and evaluations are to ensure that 1) security has been considered and built
into systems, and 2) no system is deployed with significant security vulnerabilities.
Despite these requirements, our review of available test documents provided by the IRS showed
that both the CADE and the AMS were deployed with known security vulnerabilities. The
following security control vulnerabilities were identified by the Office of Privacy, the Security
Engineering Office, and the Cybersecurity organization during testing of CADE Release 2.2,
which was deployed in January 2007, and Release 3.1, which was deployed in August 2007:
     •   Security events and unauthorized access to taxpayer accounts by privileged CADE
         users were not captured. Privileged users, such as system administrators, have the
         ability to access, modify, and delete information on a computer system. This security
         weakness means that any activities by a privileged user, such as illegal browsing,
         changes, or theft of taxpayer data, might go undetected.



10
   A structured business systems development method that requires preparation of specific work products during
different phases of the development process.
11
   Provide for “go/no-go” decision points in a project and are sometimes associated with funding approval to
proceed.
                                                                                                          Page 4
                          The Internal Revenue Service Deployed
                       Two of Its Most Important Modernized Systems
                            With Known Security Vulnerabilities



•   Contractors could make changes to system configuration settings without notice,
    approval, or security checks. Lack of configuration management restrictions increases
    the likelihood that an unauthorized user could gain access to the CADE and alter
    configuration settings to improperly manipulate taxpayer data.
•   The CADE Disaster Recovery Plan and the Information Technology Contingency Plan
    had not been sufficiently tested. Weaknesses in contingency planning and disaster
    recovery activities might hinder efforts to recover the CADE and its data in the event of a
    disaster.
•   Backup tapes from the offsite storage facility were not tested at the original site or
    alternative site. Backup tapes should be tested regularly to ensure that data are being
    stored correctly and that files can be restored without errors or lost data.
•   Interconnection Security Agreements were not in place or did not contain complete
    and current interface information. Failure to agree on the security and use of
    interconnection data among Federal Government agencies might compromise the
    confidentiality, accuracy, validity, and availability of CADE data.
•   The CADE did not have the ability to identify and process all error codes. Receipt of
    too many error codes at one time could overwhelm the CADE and bring the system to a
    halt.
•   The CADE development staff did not test security features before releasing the
    application code. If required security testing is not performed before the release of new
    updates to the CADE, any flaws in the application code could go undetected and threaten
    the confidentiality, availability, and integrity of the system data.
•   Vulnerability scans of the mainframe computer on which the CADE resides identified
    one high-risk failure and several configurations that were not sufficient for protecting
    taxpayer data. These vulnerabilities were not corrected. Allowing these vulnerabilities
    to remain on the mainframe computer exposes the CADE to unnecessary risks.
•   The CADE did not employ an application-specific vulnerability scanning tool. If
    vulnerability scanning is not performed at the application level, known vulnerabilities
    might go undetected and expose the application to unnecessary risk for the
    confidentiality, availability, and integrity of the system data.
•   The system did not automatically terminate a session after 15 minutes of inactivity. An
    insufficient timeout mechanism allows a user to remain logged into a system for extended
    periods without re-authenticating his or her session, particularly if the user walks away
    from the computer without locking it. This situation increases the risk of an unauthorized
    user gaining undetected access to the application.


                                                                                        Page 5
                                The Internal Revenue Service Deployed
                             Two of Its Most Important Modernized Systems
                                  With Known Security Vulnerabilities



     •   Malicious code protection was not implemented. The CADE might be vulnerable to
         malicious code attacks, such as computer viruses.
     •   PII data were transmitted in clear text within Computing Centers.12 Failure to protect
         the integrity of transmitted information could allow unauthorized viewing of information
         and exposes the IRS to unnecessary risks.
     •   CADE PII data backed up on tapes, disks, and compact discs, and data shared with
         external agencies, were not encrypted. Failure to protect the integrity of stored or shared
         information could allow unauthorized access to the information and exposes the IRS to
         unnecessary risks.
     •   Unauthorized access to PII could occur in mainframe computer memory, disk space,
         and tapes because the data were not removed before the media were reused. Failure to
         properly remove taxpayer data from system memory devices before reuse increases the
         risk of unauthorized access to PII.
     •   The CADE did not have adequate controls to ensure that only a minimal amount of PII
         required for the particular CADE release was collected, stored, transferred, and
         processed. The CADE was not complying with Federal privacy laws13 that require
         computer systems to collect no more information with respect to taxpayers and IRS
         employees than is necessary and relevant for tax administration and other legally
         mandated or authorized purposes.
     •   The CADE was using live data in more than 18 test environments for application
         development testing, but the system owner did not properly describe how the CADE will
         acquire, use, and dispose of the live data. As a result, the risk of improper disclosure of
         PII was increased.
The following security control vulnerabilities were identified by the Security Engineering Office
and the Cybersecurity organization during testing of AMS Release 1.1, which was deployed in
October 2007:
     •   Auditing controls were not sufficient to identify security-related events and
         unauthorized access to taxpayer information. Activities such as illegal browsing,
         changes, or theft of taxpayer files might go undetected.
     •   Procedures were not implemented for disabling inactive accounts. Persons no longer
         needing access to carry out responsibilities and persons with a malicious intent could use
         the accounts to gain unauthorized access to the system.

12
   IRS Computing Centers support tax processing and information management through a data processing and
telecommunications infrastructure.
13
   Privacy Act of 1974, 5 U.S.C. § 552a (2000).
                                                                                                       Page 6
                                   The Internal Revenue Service Deployed
                                Two of Its Most Important Modernized Systems
                                     With Known Security Vulnerabilities



     •   The system did not automatically terminate a session after 15 minutes of inactivity. An
         insufficient timeout mechanism allows a user to remain logged into a system for extended
         periods without re-authenticating his or her session, particularly if the user walks away
         from the computer without locking it. This situation increases the risk that an
         unauthorized user might gain undetected access to the application.
     •   No alternate processing site had been established for the AMS. In the event of an
         area-wide disruption or disaster, availability of the AMS could be affected.
     •   The application error log contained Taxpayer Identification Numbers, risking
         accidental or intentional disclosure. Capturing Taxpayer Identification Numbers in an
         error log unnecessarily exposes the data to accidental or intentional disclosure, which
         might result in identity theft and other unlawful use of the data.
     •   The operating system hosting the AMS was determined to have only a 77.8 percent
         compliance rate with required security settings, including 5 high-risk failures.
         Noncompliant configurations could leave the infrastructure as well as the application
         open to known and unknown security threats that could affect the confidentiality,
         integrity, and availability of the application and the PII it processes and stores.
Missing security controls in the CADE and the AMS relate mainly to the protection of sensitive
data, system access, audit logging,14 and disaster recovery. These security weaknesses increase
the risks that 1) an unscrupulous person, with little chance of detection, could gain unauthorized
access to the vast amount of taxpayer information the IRS processes, and 2) the systems could
not be recovered effectively and efficiently during an emergency. Until security control
vulnerabilities are corrected, the IRS is jeopardizing the confidentiality, integrity, and availability
of the massive volume of taxpayer data processed and stored by the CADE and the AMS.
Management Action: Subsequent to our audit fieldwork, the IRS advised us that 11 of the
22 security vulnerabilities mentioned previously had been either corrected during subsequent
releases or determined not to be vulnerabilities after deployment, and actions were being taken to
address the remaining 11 security vulnerabilities. We plan to perform a followup review to
evaluate the effectiveness of the IRS’ corrective actions.




14
   An audit log is a chronological record of activities that allow for the reconstruction, review, and examination of a
transaction from inception to final results. Audit logs can be used to detect unauthorized accesses to computer
networks.
                                                                                                                Page 7
                                  The Internal Revenue Service Deployed
                               Two of Its Most Important Modernized Systems
                                    With Known Security Vulnerabilities



We believe these security vulnerabilities to be significant because they affect the systems’
abilities to 1) restrict access to only those individuals with a business need, 2) monitor activities
for questionable transactions, 3) protect data from unauthorized disclosure, and 4) ensure
continued operation of the systems. We also believe that the significance of these security
vulnerabilities is heightened because the CADE and the AMS are critical modernized systems
that will affect the future success of the IRS’ computing environment. In addition, the NIST
specifies a minimum baseline of security controls that all Federal Government systems must
address to ensure compliance with Federal security standards.
We identified two areas of concern regarding why these systems were deployed with significant
security vulnerabilities. Specifically:
     ¾ The CADE and AMS project offices did not ensure that the security vulnerabilities were
       adequately prevented and resolved once they were identified, and the Customer Service
       Executive Steering Committee15 approved milestone exits without giving adequate
       consideration to what we view as significant security vulnerabilities on the systems.
     ¾ The Cybersecurity organization recommended–and the CADE and the AMS system
       owners approved–that the systems be fully accredited16 without giving adequate
       consideration to what we view as significant security vulnerabilities on the systems.

Prevention and resolution of security vulnerabilities were not given adequate
consideration prior to deployment of the systems
NIST Special Publication 800-53 specifies the recommended security controls for all Federal
Government information systems. The IRS mandated that any business unit developing an
information system must ensure that the system project office for the development effort has
adequate security engineering expertise to properly address the planning and implementation of
the minimum security controls required for protection of the data residing on its systems.
Because of the criticality of both the CADE and the AMS, the IRS established specific project
offices for both systems. The project offices should ensure that security controls have been
implemented and security vulnerabilities have been mitigated or resolved during the Enterprise
Life Cycle and prior to deployment.
Throughout the Enterprise Life Cycle, the Customer Service Executive Steering Committee is
responsible for final exit approval at each milestone. This Committee consists of 14 IRS
executives from the Wage and Investment Division and the Modernization and Information


15
   The charter for the Customer Service Executive Steering Committee shows that its primary objective is to ensure
that project objectives are met, risks are managed appropriately, and the expenditure of enterprise resources is
fiscally sound.
16
   Accreditation is the official management decision given by the owner of an information system to authorize the
operation of the system and to explicitly accept the risks.
                                                                                                           Page 8
                                 The Internal Revenue Service Deployed
                              Two of Its Most Important Modernized Systems
                                   With Known Security Vulnerabilities



Technology Services organization. It is co-chaired by an executive from this Division and
organization. Governance by the Customer Service Executive Steering Committee includes
1) ensuring that projects adhere to accepted principles and practices of the Enterprise Life Cycle,
and 2) resolving enterprise-wide issues for its projects, such as the CADE and the AMS.
The decision to approve a milestone exit is based on the recommendation from the Enterprise
Life Cycle Program Management Office, which conducts milestone readiness reviews. When
significant security or privacy concerns exist, a conditional milestone exit may be recommended.
This type of exit generally requires that the condition be corrected prior to the next milestone
exit. Otherwise, the Customer Service Executive Steering Committee will give an unconditional
exit approval, and the system development proceeds to the next milestone effort.
Despite these requirements and key milestone decision points, we found that most of the security
vulnerabilities discussed previously were identified repeatedly during CADE milestone reviews
and were not corrected. Rather, they were carried over from milestone to milestone and even
from release to release. The continued existence of these security vulnerabilities indicates that
security controls were not sufficiently considered by the project office and built into the systems
during the Development Phase of later releases.
In addition to not building in security controls during the Development Phase, the CADE project
office did not resolve the security vulnerabilities previously discussed and, as a result, the CADE
was deployed with these vulnerabilities. Seven of the 16 CADE security vulnerabilities were
attributable to the project office and should have been addressed by the project office. The other
nine CADE security vulnerabilities related to general support systems17 or enterprise-wide
deficiencies. The project office advised us that it was not responsible for addressing these
security control weaknesses because the weaknesses were beyond its system boundaries and
authority to address, and the project office assumed that the owners of the nine general support
systems on which the CADE relies were responsible for implementing many of its required
security and privacy controls.
Of the six security vulnerabilities on the AMS, the project office was responsible for two, which
it should have addressed. The other four security vulnerabilities were related to general support
systems or enterprise-wide deficiencies.




17
  A general support system is an interconnected set of information resources under the same direct management
control that shares common functionality and normally includes hardware, software, data, applications,
communications, and people.
                                                                                                         Page 9
                                   The Internal Revenue Service Deployed
                                Two of Its Most Important Modernized Systems
                                     With Known Security Vulnerabilities



NIST Special Publication 800-18, Revision 1,18 specifies that if a system is defined as a major
application,19 such as the CADE and the AMS, and the application is run on a general support
system, the major application owner is responsible for acceptance of risk and must ensure that
the system security plan of the general support system provides adequate protection for the
application and its data. In addition, more recent NIST draft guidance specifies that if the
general support system or common controls do not provide the security controls required by the
individual information system, the project office should take appropriate actions to supplement
those controls as required for any protection deficits that result at the system level.
Regardless of who was responsible for implementing the various security controls, we believe
that the Customer Service Executive Steering Committee was in the best position to ensure that
all significant security vulnerabilities were resolved or mitigated prior to deployment.
Unfortunately, for the security vulnerabilities mentioned previously, the Customer Service
Executive Steering Committee did not 1) provide sufficient oversight to ensure that security
controls were implemented, and 2) did not consider the security vulnerabilities significant
enough to place conditional restrictions on the release or delay the systems’ releases all together.
As a result, it signed off unconditionally on CADE milestones despite the existence of repeatedly
reported security weaknesses.
Of the security vulnerabilities discussed previously, we are most concerned about the lack of
audit logs and disaster recovery capabilities in modernized systems. It might be understandable
that older legacy systems cannot log transactions or comply with other current security and
privacy requirements, such as disaster recovery capabilities, due to older computer equipment.
However, the IRS should ensure that these requirements are included in modernized systems.
According to the NIST,20 any effort to install logging capabilities or other security controls after
deployment of a system will likely cost significantly more than if the security capabilities had
been successfully designed into the system during the system Development Phase.
We believe that the lack of attention to security controls during the Development Phase can be
traced to other business requirements, filing season pressures, and deployment demands. These
concerns have taken precedence over security concerns, and executive-level management was
not adequately engaged in security needs and requirements. Consequently, the CADE reached
rollout dates without security controls, and accreditation officials were put in the position of
implementing a critical system with significant security flaws rather than delaying the
deployment.


18
   Guide for Developing Security Plans for Federal Information Systems, published February 2006.
19
   An application is the use of information resources (information and information technology) to satisfy a specific
set of user requirements. A major application contains, processes, stores, or transmits information critical to the
agency’s mission.
20
   Security Considerations in the Information System Development Life Cycle (NIST Special Publication 800-64
Revision 1, published June 2004).
                                                                                                            Page 10
                                 The Internal Revenue Service Deployed
                              Two of Its Most Important Modernized Systems
                                   With Known Security Vulnerabilities



The IRS continues to struggle with addressing security vulnerabilities on its modernized systems.
We identified some of these same vulnerabilities in prior audit reports on the CADE and other
modernization projects. Specifically, in 2005 we reported that the IRS was not adequately
considering security controls early enough in the Development Phase of a system.21 We
identified several inadequate security controls that should have been addressed in the
Development Phase, including security configurations, audit logs, and disaster recovery plans.
In 2004 and 2006, we reported that audit logs for IRS modernized systems were not
functioning.22 The IRS agreed with most of our findings and responded that it would ensure that
security control requirements were planned for early in the Enterprise Life Cycle process, and it
was committed to addressing its deficiencies in audit logging on modernized systems.

The systems were accredited despite the existence of several known security
vulnerabilities
The last step of the developmental process and the most critical key decision point prior to
deployment of a system is the accreditation by the system owner. In making the decision to
accredit information systems, the system owner essentially accepts the risk of the system and
approves the deployment and operation of the system. The system owner can give the system an
authority to operate, give an interim authority to operate for a period of time until significant
deficiencies are corrected, or prevent the system from deploying. The system owner bases his or
her accreditation decisions on several certification documents.
During the certification process, the Cybersecurity organization develops the test plan based on
the system security plan, performs the testing of application-specific security controls, and
provides the results in the security assessment report. The Cybersecurity organization also issues
a certification memorandum that provides a summary of the certification results and a
recommendation for the system owner to grant the authority to operate, grant interim authority to
operate, or deny authority to operate.
Despite the presence of what we believe were significant unresolved security vulnerabilities on
the systems, the system owners did not consider the security vulnerabilities to be significant
enough to either give an interim authority to operate or delay deployment, and they gave
authorities to operate for the CADE and the AMS. We disagree with the system owners’
acceptance of what we consider excessive risks for these security vulnerabilities, particularly the
inabilities to successfully recover the systems and their data in the event of a disaster and to
detect malicious security events and unauthorized accesses to taxpayer data. The current


21
   Security Controls Were Not Adequately Considered in the Development and Integration Phases of Modernization
Systems (Reference Number 2005-20-128, dated August 2005).
22
   The Audit Trail System for Detecting Improper Activities on Modernized Systems Is Not Functioning (Reference
Number 2004-20-135, dated August 2004) and Improvements Are Needed to Ensure the Use of Modernization
Applications Is Effectively Audited (Reference Number 2006-20-177, dated September 29, 2006).
                                                                                                      Page 11
                                 The Internal Revenue Service Deployed
                              Two of Its Most Important Modernized Systems
                                   With Known Security Vulnerabilities



cyber-threat environment in the Federal Government dictates the need for any significant system
to have these capabilities.
We believe that the CADE and the AMS should have been given interim authorities to operate
due to what we view as significant security vulnerabilities present on the systems. Further, the
CADE should not be approved to operate if the significant security vulnerabilities require
extended remediation time. In making the accreditation, the CADE system owner considered
only those controls for which the owner was directly responsible. However, the decision to
accredit should not be made in isolation and should be made with regard to agency-wide
business process considerations and the interconnections with other systems, such as the general
support systems.
We also disagree with the CADE and the AMS certification memoranda issued by the Associate
Chief Information Officer, Cybersecurity, which recommended that the system owners grant an
authority to operate. While the certification memoranda mentioned the existence of security
vulnerabilities on the systems, the memorandum for the earlier CADE Release 2.2 stated, “With
your commitment to develop a plan to address and ultimately resolve all identified risks for the
CADE application timely, I am recommending you grant an Authorization to Operate for the
CADE application.” The later CADE Release 3.1 had most of the same security vulnerabilities.
We believe that the system owners relied heavily on the Cybersecurity organization’s
recommendation as well as the Customer Service Executive Steering Committee’s exit approvals
during the Enterprise Life Cycle.
The recommendations in the certification memoranda are based on security assessment reports.
However, we found that the security assessment reports provided only summary-level security
vulnerability information for general support systems and contained incomplete and erroneous
security control implementation status. As a result, the system owners might not have known the
full extent of the risks they were accepting when authorizing the CADE and the AMS to operate.
In addition, since 1997, the IRS has designated computer security as a material weakness,23
which the IRS has segregated into nine separate vulnerability areas: 1) network access controls;
2) key computer applications and system access controls; 3) software configuration; 4) functional
business, operating, and program units security roles and responsibilities; 5) segregation of duties
between system and security administrators; 6) contingency planning and disaster recovery;


23
   The Federal Managers’ Financial Integrity Act of 1982 (31 U.S.C. §§ 1105, 1113, 3512 (2000)) requires that each
Federal Government agency conduct annual evaluations of its systems of internal accounting and administrative
control and submit an annual statement on the status of the agency’s system of management controls. As part of the
evaluations, agency managers identify control areas that can be considered material weaknesses. The Department of
the Treasury has defined a material weakness as, “shortcomings in operations or systems which, among other things,
severely impair or threaten the organization’s ability to accomplish its mission or to prepare timely, accurate
financial statements or reports.” Material weaknesses are reported outside the agency and thus receive additional
oversight.
                                                                                                         Page 12
                                  The Internal Revenue Service Deployed
                               Two of Its Most Important Modernized Systems
                                    With Known Security Vulnerabilities



7) monitoring of key networks and systems; 8) security training; and 9) certification and
accreditation. While the IRS is working toward closing these areas, we believe that the existence
of the computer security material weakness needs to be considered when making decisions on
system deployments.
We also believe that the IRS goal to certify and accredit all of its systems adversely affected the
agency’s ability to objectively evaluate the security posture of its systems, especially for the
CADE and the AMS. NIST Special Publication 800-3724 specifically states that systems with
interim authorities to operate cannot be considered accredited. As a result, the existence of
systems with interim authorities to operate might affect the agency in the following ways:
     ¾ The E-Government section in the President’s Management Agenda initiative pertains to
       the certification and accreditation of systems. Using the color-coded rating to determine
       success levels, the President’s Management Agenda allows an agency to achieve the
       optimum “green” status only if the agency maintained 100 percent of its systems as
       certified and accredited.
     ¾ The Federal Information Security Management Act25 includes an evaluative section on
       the agency’s number of systems that have been certified and accredited. This percentage
       affects the agency’s overall grade.
     ¾ The Office of Management and Budget requires completion of the Exhibit 30026 to
       comply with the Clinger-Cohen Act of 1996.27 Any operational system that has not been
       certified and accredited might not have its proposed budget approved for funding by the
       Office of Management and Budget.

Recommendations
Recommendation 1: The Director, Business Modernization Office, and the Director,
Customer Service, serving as the Co-Chairs of the Customer Service Executive Steering
Committee, should consider all security vulnerabilities–including those associated with general
support systems–that affect the overall security of the CADE and the AMS before approving
milestone exits. Equal emphasis should be placed on security and functionality.



24
   Guide for the Security Certification and Accreditation of Federal Information Systems, published May 2004.
25
   Pub. L. No. 107-347, Title III, 116 Stat. 2946 (2002).
26
   The Exhibit 300 is a detailed budget justification that information technology system owners must complete and
submit annually to the Office of Management and Budget.
27
   (Federal Acquisition Reform Act of 1996) (Information Technology Management Reform Act of 1996),
Pub. L. No. 104-106, 110 Stat. 642 (codified in scattered sections of 5 U.S.C., 5 U.S.C. app., 10 U.S.C., 15 U.S.C.,
16 U.S.C., 18 U.S.C., 22 U.S.C., 28 U.S.C., 29 U.S.C., 31 U.S.C., 38 U.S.C., 40 U.S.C., 41 U.S.C., 42 U.S.C.,
44 U.S.C., 49 U.S.C., 50 U.S.C.).
                                                                                                            Page 13
                             The Internal Revenue Service Deployed
                          Two of Its Most Important Modernized Systems
                               With Known Security Vulnerabilities



       Management’s Response: The IRS agreed with this recommendation. It will
       continue to follow the governance process documented in the Customer Service
       Executive Steering Committee charter and consider all security vulnerabilities to ensure
       that best practices are in place for the successful delivery of project security and
       functionality.
Recommendation 2: The CADE and AMS Project Managers should provide more emphasis
on both preventing and resolving security vulnerabilities identified during Enterprise Life Cycle
processes.
       Management’s Response: The IRS agreed with this recommendation. It will
       continue to follow the existing Enterprise Life Cycle processes for identifying,
       confirming, and resolving security vulnerabilities at the requirements, design,
       development, and testing life cycle stages, with an increased emphasis on both preventing
       and resolving security vulnerabilities identified during the Enterprise Life Cycle
       processes. The IRS will also strengthen its process for capturing and documenting all
       Executive Steering Committee meeting minutes.
Recommendation 3: The Wage and Investment Division Directors of the CADE and the
AMS, in their roles as system owners, should approve interim authorities to operate when
significant security control weaknesses exist in system environments. These interim authorities
to operate should contain specific terms and conditions in accordance with IRS policy, including
corrective actions to be taken by the information system owners and a required time period for
completion of the corrective actions, before authorities to operate are granted.
       Management’s Response: The IRS agreed with this recommendation. It will
       continue to follow existing policy to issue interim authorities to operate with appropriate
       timelines when significant control weaknesses exist in system environments.
Recommendation 4: The Associate Chief Information Officer, Cybersecurity, should
recommend interim authorities to operate when significant security vulnerabilities exist in
system environments.
       Management’s Response: The IRS agreed with this recommendation. The
       Cybersecurity organization has been recommending interim authorities to operate when
       significant security vulnerabilities exist in system environments as a standard part of the
       IRS certification and accreditation process.
Recommendation 5: The Associate Chief Information Officer, Cybersecurity, should
continue efforts to improve the accuracy and completeness of risk information in the security
assessment reports by listing the general support system controls that are not yet implemented in
the system environment and documenting concurrence by the Security Engineering Office and
the Office of Privacy when reporting that vulnerabilities identified during milestone reviews
have been corrected.

                                                                                           Page 14
                     The Internal Revenue Service Deployed
                  Two of Its Most Important Modernized Systems
                       With Known Security Vulnerabilities



Management’s Response: The IRS agreed with this recommendation. The
Cybersecurity organization has modified the certification and accreditation process to
include documented concurrence by the Security Engineering Office and/or the Office of
Privacy when reporting in security assessment reports that vulnerabilities identified
during milestone reviews have been corrected. The Cybersecurity organization will
update its standard operating procedures to incorporate these process changes and will
continue to strengthen the process by including the relevant general support system Plan
of Action and Milestones as an attachment to each application security assessment report.
Office of Audit Comment: Although the IRS agreed with all of our
recommendations, the related corrective actions for the first four recommendations are
focused on continuing to follow existing processes or strengthening current processes.
As stated in the report, we believe that the existing security vulnerabilities were not
caused by process deficiencies. Instead, IRS offices did not carry out their
responsibilities for ensuring that security weaknesses were corrected before deployment.




                                                                                 Page 15
                                 The Internal Revenue Service Deployed
                              Two of Its Most Important Modernized Systems
                                   With Known Security Vulnerabilities



                                                                                                Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of the review was to determine whether appropriate security controls have
been implemented in the CADE and the AMS systems.1 To accomplish our objective, we:
I.      Determined whether appropriate security controls had been considered and included in
        the CADE and the AMS.
        A. Reviewed the security categorization criteria prescribed by Federal Information
           Processing Standards Publication 1992 and NIST Special Publication 800-603 and
           determined whether the security categorizations the IRS assigned to the CADE and
           the AMS were documented and supported.
        B. Compared the minimum security controls in NIST Special Publication 800-534 to the
           security controls listed in the system security plans for CADE Releases 2.2 and 3.1
           and AMS Release 1.1 and determined whether all minimum security controls were
           included.
        C. Determined whether security controls were integrated early enough in CADE
           Releases 2.2 and 3.1 and AMS Release 1.1 system development life cycles to be cost
           effective.
II.     Determined whether the security controls were fully tested as prescribed in NIST Special
        Publication 800-375 by an independent test team.
III.    Determined whether the security assessment reports were prepared in accordance with
        NIST Special Publication 800-37.
IV.     Obtained supporting documentation for closed recommendations in two prior Treasury
        Inspector General for Tax Administration reports6 and determined whether corrective
        actions were completed and effective.

1
  The CADE will provide the foundation for managing all taxpayer accounts and will replace existing tax processing
systems. The AMS will provide faster and improved access by employees to taxpayer account data.
2
  Standards for Security Categorization of Federal Information and Information Systems, published February 2004.
3
  Guide for Mapping Types of Information and Information Systems to Security Categories, Volume 1, published
June 2004.
4
  Recommended Security Controls for Federal Information Systems, Revision 1, published December 2006.
5
  Guide for the Security Certification and Accreditation of Federal Information Systems, published May 2004.
6
  Security Controls Were Not Adequately Considered in the Development and Integration Phases of Modernization
Systems (Reference Number 2005-20-128, dated August 2005) and Improvements Are Needed to Ensure the Use of
Modernization Applications Is Effectively Audited (Reference Number 2006-20-177, dated September 29, 2006).
                                                                                                         Page 16
                            The Internal Revenue Service Deployed
                         Two of Its Most Important Modernized Systems
                              With Known Security Vulnerabilities



                                                                               Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Preston B. Benoit, Acting Assistant Inspector General for Audit (Information Systems Programs)
Steve Mullins, Director
Kent Sagara, Audit Manager
Jody Kitazono, Lead Auditor
Alan Beber, Senior Auditor
Bret Hunter, Senior Auditor
Louis Lee, Senior Auditor
Midori Ohno, Senior Auditor
Joan Raniolo, Senior Auditor




                                                                                      Page 17
                           The Internal Revenue Service Deployed
                        Two of Its Most Important Modernized Systems
                             With Known Security Vulnerabilities



                                                                 Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Chief Information Officer OS:CIO
Deputy Commissioner, Wage and Investment Division SE:W
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Wage and Investment Division SE:W
       Chief Information Officer OS:CIO




                                                                       Page 18
            The Internal Revenue Service Deployed
         Two of Its Most Important Modernized Systems
              With Known Security Vulnerabilities



                                                 Appendix IV

Management’s Response to the Draft Report




                                                        Page 19
   The Internal Revenue Service Deployed
Two of Its Most Important Modernized Systems
     With Known Security Vulnerabilities




                                               Page 20
   The Internal Revenue Service Deployed
Two of Its Most Important Modernized Systems
     With Known Security Vulnerabilities




                                               Page 21
   The Internal Revenue Service Deployed
Two of Its Most Important Modernized Systems
     With Known Security Vulnerabilities




                                               Page 22
